                                                                MA-A-0002
                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office ofInspector General




                                                                                            March 20, 2014

UNCLASSIFIED

TO:               M-Patrick F. Kennedy
                  A - Joyce A. Barr

FROM:            OIG/AUD - Norman P.            Brow~
                 OIG/INV - Anna S. GershmanJ
                 OIG/ISP - Robert Peterso~f

SUBJECT:          Management Alert (Contract File Management Deficiencies)

The Office of Inspector General (OIG), in recent audits, investigations, and inspections,
has identified significant vulnerabilities in the management of contract file
documentation that could expose the Department to substantial financial losses.
Specifically, over the past 6 years, OIG has identified Department of State (Department)
contracts with a total value of more than $6 billion in which contract files were
incomplete or could not be located at all. The failure to maintain contract files
adequately creates significant financial risk and demonstrates a lack of internal control
over the Department's contract actions.

This Management Alert is intended to alert senior Department management to the serious
nature of the issue and provides recommendations to assist in eliminating or mitigating
those vulnerabilities.

Pertinent Authority:

The Federal Acquisition Regulation (FAR) requires that contract files be placed in
                                                                         1
organized filing systems and be properly stored, handled, and disposed. FAR 1.602-2
(d) provides for contracting officers (CO) to designate and authorize, in writing, a
contracting officer's representative (COR) to execute certain duties. The Foreign Affairs
Manual (FAM) at 14 FAM 213 provides that the FAR and the Department of State
Acquisition Regulations (DO SAR), which implements and supplements the FAR, govern
Department acquisitions. DOSAR 604.802 requires that the heads of the contracting

1
 FAR Subparts 4.801"General," 4.802 "Contract Files," 4.803 "Contents of Contract Files," 4.804 "Closeout of
Contract Files," and 4.805 "Storage, Handling, and Disposal of Contract Fi les" address the filing system.

      Address correspondence to: U.S. Department of State, Office of Inspector General, Washington, D.C. 20522--0308
                                             UNCLASSIFIED 


activities maintain standard procedures to conform to FAR 4.802 for file location and
maintenance. Additionally, DOSAR 604.803-70 states that:

        It is the Department's policy that all contracts, regardless of dollar value, be
        properly documented so as to provide a complete record of: pre-solicitation
        activities; the solicitation, evaluation, and award process; and, [sic] the
        administration ofthe contract through closeout.

Representatives within the Bureau of Administration's Office ofthe Procurement
Executive (A/OPE) also have responsibility for monitoring the Department's
procurement activities. According to 1FAM212.2, A/OPE "[e]stablishes a system for
measuring the performance of contracting activities and offices ...to ensure the quality of
procurement actions ..." and, "[c]onducts training and staff assistance visits to contracting
offices domestically and abroad to promote quality in the acquisition process."

Findings and Analysis:

OIG audits, investigations, and inspections, as well as audits of Department contract
management conducted by other oversight organizations, have found repeated examples
of poor contract file administration. Therefore, OIG has designated contract management
as one ofthe Department's major management challenges for the past several years. 2
The Department's Agency Financial Report references additional contract management
deficiencies identified by OIG.

Set out below are examples of contract file deficiencies found in audits, investigations,
and inspections:

       Audits. A recent OIG audit of the closeout process for contracts supporting the
U.S. Mission in Iraq revealed that contracting officials were unable to provide 33of115
contract files requested in accordance with the audit sampling plan. 3 The value of the
contracts in the 33 missing files totaled $2.1 billion. Forty-eight of the 82 contract files
received did not contain all of the documentation required by FAR 4.8. The value of the
contracts in the 48 incomplete files totaled an additional $2.1 billion. An ongoing OIG
audit ofBureau of African Affairs contracts revealed that CORs were unable to provide
complete contract administration files for any of the eight contracts that were reviewed.
The value of these contracts totaled $34.8 million. 4


2
  The Inspector General's Assessment ofthe Department's Management and Performance Challenges is contained in 

the United States Department of State Fiscal Year 2013 Agency Financial Report, pages 122-129. 

3
  Audit ofthe Contract Closeout Process for Contracts Supporting the U.S. Mission in Iraq (AUD-MER0-14-06, 

December 2013). 

4
  "Audit of Selected Contracts and Grants within the Bureau of African Affairs," Audit Job Number 13AUD086, 

announced on July 16, 2013. 

                                                      2

                                            UNCLASSIFIED 


Deficiencies in contract file management have also been identified in joint audit reports
issued by this office, the Department of Defense OIG (DoD OIG) and the Special
Inspector General for Iraq Reconstruction (SIGIR). Specifically, in two joint audits
conducted with DoD OIG,5 we found that, for two task orders valued in excess of $1
billion, the Bureau of International Narcotics and Law Enforcement Affairs had neither
ensured that the COR for the Civilian Police contract in Afghanistan established or
maintained contracting files that were complete and easily accessible, nor finalized and
fully implemented standard operating procedures for maintaining COR files. Also, in a
joint audit with SIGIR, 6 we reviewed four task orders from the Worldwide Personal
Protective Services II contract, with an estimated total cost of $1 billion as of May 29,
2008, and found that COR files maintained in both Washington, DC, and Baghdad, Iraq,
were not accessible, complete, or maintained in accordance with Department policy.

In sum, over the past 6 years, our audit work has uncovered significant contract file
management deficiencies in Department contracts/task orders with a total value of more
than $6 billion.

       Investigations. In the case of work undertaken by OIG's Office of Investigations,
one investigation revealed that a contract file did not contain documentation reflecting
that modifications and task orders were awarded to the company owned by the spouse of
a contractor employee performing as a Contract Specialist for the 9ontract. This contract
was valued at $52 million.

In another investigation, OIG found that a CO falsified Government technical review
information and provided the contractor with contract pricing information. The related
contract file was not properly maintained and for a period of time was hidden by the CO.
This contract was valued at $100 million. In a third investigation, OIG found that a COR
allowed the payment of $792, 782 to a contractor even though the contract file did not
contain documents to support the payment. Furthermore, an additional OIG investigation
revealed that the contract file was missing a COR appointment letter required by FAR
1.602-2 (d).

        Inspections. In a number of recent OIG inspections, OIG identified contract file
management deficiencies. For example, COR files for a $2.5 million contract lacked
status reports and a tally of the funds expended and remaining on the contract. 7 OIG
discovered other instances in which contract files lacked contract performance


s DOD Obligations and Expenditures ofFunds Provided to the Department ofState for the Training and Mentoring
ofthe Afghan National Police (MERO-A-10-06, February 9, 2010); and DOD and DOS Need Better Procedures to
Monitor and Expend DOD Funds for the Afghan National Police Training Program (AUD/CG-11-30, July 7, 2011).
6
  Joint Audit ofBlackwater Contract and Task Orders for Worldwide Personal Protective Services in Iraq
~AUD/IQ0-09-16, June 2009).
 Inspection ofthe Bureau ofInformation Resource Management, Office ofInformation Assurance (ISP-1-13-38,
July 2013).

                                                     3

                                             UNCLASSIFIED 


documentation and COR appointment and training certification; 8 CORs failed to maintain
technical information and performance records needed to monitor contractor
performance;9 and COR filing systems were disorganized. 10

Conclusion:

The Department should take additional action to correct its inadequate enforcement of the
FAR's provisions, and its own procedures, that govern the maintenance of contract files.
The failure to enforce those requirements exposes the Department to significant financial
risk and makes OIG oversight more difficult. It creates conditions conducive to fraud, as
corrupt individuals may attempt to conceal evidence of illicit behavior by omitting key
documents from the contract file. It impairs the ability of the Department to take
effective and timely action to protect its interests, 11 and, in tum, those of taxpayers.
Finally, it limits the ability of the Government to punish and deter criminal behavior.

Recommendations:

In its Audit of the Contract Closeout Process for Contracts Supporting the U.S. Mission
in Iraq (AUD-MER0-14-06), OIG recommended that A/OPE establish a centralized
system for maintaining, tracking, and retaining contract files. OIG is making the
following additional recommendations:

        (1) OIG recommends that A/OPE develop and implement a process to randomly
            sample and verify the completeness of contract files, including contract files
            maintained by contracting officers' representatives and other supporting
            personnel.

        (2) OIG recommends that A/OPE provide the results of its reviews as set forth in
            recommendation one to the appropriate bureaus and offices to ensure that
            contracting officers, contracting officers' representatives, as well as their
            supervisors and other supporting personnel who do not adequately maintain
            contract files are held accountable and are required to update contract files in
            accordance with Federal and Department policies.


8
  Inspection ofEmbassy Vilnius, Lithuania (ISP-l-13-41A, September 2013). 

9
  Inspection ofthe Bureau ofInternational Information Programs (ISP-1-13-28, May 2013); Inspection ofthe 

Bureau ofInformation Resource Management, Office ofInformation Assurance (ISP-1-13-38, July 2013). 

10
   Inspection ofthe Bureau ofInternational Information Programs (ISP-1-13-28, May 2013); Inspection ofthe 

Bureau ofInformation Resource Management, Office ofInformation Assurance (ISP-1-13-38, July 2013); Inspection 

ofthe Bureau ofInformation Resource Management, Systems and Integration Office (ISP-1-12-30, June 2012). 

11
   Lessons Learned.from U.S. Agencies' Management ofIraqi Funds for Reliefand Reconstruction (SIGIR 13-004, 

January 22, 2013); Final Forensic Audit Report ofIraq Reconstruction Funds (SIGIR 12-017, July 13, 2012); and 

Analysis ofRecommendations Concerning Contracting in Afghanistan, as Mandated by Section 1219 ofthe Fiscal 

Year 2011 NDAA (SIGAR Audit 11-1 SP, June 22, 2011 ). 


                                                      4

                                    UNCLASSIFIED

      (3) OIG recommends that the Under Secretary for Management ensure that
          contracting officers and their supporting personnel, and A/OPE specialists
          conducting oversight visits, have resources sufficient to maintain adequate
          contract files in accordance with relevant regulations and policies.

OIG would appreciate a written response to this alert and information on actions taken or
planned for the alert' s three recommendations. The response should indicate agreement
or disagreement with each recommendation.

Comments received within 14 calendar days of the date of this Management Alert will be
reprinted as an appendix to the alert. In addition to the hard-copy response, please
provide an electronic copy to Norman P. Brown, Assistant Inspector General for Audits,
at brownnp2@state.gov. This Management Alert may be posted to the OIG Internet and
Intranet Web Sites.

If you have any questions, please feel free to contact Norman Brown at (703) 284-2692.



cc:   INL - William R. Brownfield




                                            5

                                                         United States Department of State
                                                         Assistant Secretary of State
                                                         for Administration
                                                         Washington, D.C. 20520
                                                         March 28, 2014



UNCLASSIFIED

TO: 	         OIG/ AUD- Norman P. Brown
              OIG/INV-Anna S. Gershman
              OIG/ISP-Robert Peterson

FROM: 	       A - Joyce A. Barr   ~
SUBJECT: 	    Management Alert (Contract File Management Deficiencies) Dated March 20,
              2014

The Office of the Inspector General (OIG) subject Management Alert identified vulnerabilities in
the management of contract file documentation that the OIG indicated could expose the
Department to potential financial losses. The Bureau of Administration agrees that this
vulnerability must be addressed. The point of contact for this Management Alert is the Office of
the Procurement Executive (OPE), Eric N. Moore, who may be reached at 703-875-4079.

Management Alert Recommendations:

   (1) OIG recommends that A/OPE develop and implement a process to randomly
       sample and verify the completeness of contract flies, including contract files
       maintained by contracting officer's representatives and other supporting personnel.

   RESPONSE: Concur with this recommendation. A/OPE intends to do the following to ensure
   that files are complete:

   a) 	 The Head of the Contracting Activity (HCA) is the individual who has overall
        responsibility for managing the contracting activity within a given unit. The Director of
        Acquisitions Management (AILM/AQM) is the HCA for AQM and the Regional
        Procurement Support Offices (RPSOs). Regional Bureau Post Management Officers are
        the HCAs for post procurement. A/OPE will issue a Procurement Information Bulletin
        (PIB) establishing a contract file audit requirement for HCAs. Because of their size and
        responsibilities, A/LM/AQM will be directed to provide a formal contract file audit plan
        for A/OPE approval.
    A/OPE will review the results of the A/LM/AQM contract file review and the system for
    corrective action. Additional quality assurance, such as review of the completeness of
    files at time of award and at the determination to exercise an option must be considered
    as part of the plan to build in quality during the process, rather than auditing it in after the
    fact.

b) A/OPE will issue a memorandum to all warranted contracting officers, Federal
   Acquisition Certification-Contracting (FAC-C) and Federal Acquisition Certification­
   Contracting Officer Representative (FAC-COR) personnel advising them of their basic
   responsibility to maintain adequate contract documentation. The memorandum will
   advise that failure to meet this basic responsibility may be a consideration in maintaining
   future contracting or contracting officer representative authority.

c) 	 A/OPE will review a random sample of contract files at overseas posts as an element of
     Staff Assistance Visits (SA Vs). It is anticipated that this review may require additional
     time at post and may necessitate additional travel funds beyond current travel caps to be
     effective. A/OPE will expand the number and scope of post reviews if feasible based on
     the availability of additional travel and additional personnel resources.

d) A/OPE proposes a multi-level response to the review of contracting officer's
   representative files. The initial responsibility for contracting officer representative
   compliance lies with the contracting officer appointing the COR as their representative.
   A/OPE will add a requirement for contracting officers to verify the establishment of COR
   contract files on programs under their cognizance that exceed $1M. Contracting officers
   on programs exceeding $10M will be advised to verify that the COR has an adequate file
   within six months of contract initiation and annually thereafter. CORs will, in turn, be
   required to certify to the contracting officer that files are being maintained. The transition
   of contracting officer or contracting officer's representative duties will include a
   requirement to verify the status of the files being transitioned.

e) 	 Bureaus with a significant number of contracting officer representatives will be advised
     to be engaged in COR file reviews. A/OPE will work with these offices to institute a
     Bureau review of COR files as an important level of oversight. A/OPE will review the
     results of these bureau reviews as well as select additional files for review.

f) 	 A/OPE will conduct an additional random review of contract and contracting officer
     representative files based on the availability of resources.




                                             -2­
    (2) OIG recommends that A/OPE provide the results of its reviews as set forth in
        recommendation one to the appropriate bureaus and offices to ensure that
        contracting officers, contracting officers' representatives, as well as their
        supervisors and other supporting personnel who do not adequately maintain
        contract files are held accountable and are required to update the contract files in
        accordance with Federal and Department policies.

   RESPONSE: Concur with this recommendation. A/OPE intends to do the following to ensure
   that contracting personnel are held accountable for adequately maintaining contract files:

       a) 	 A/OPE will issue a memorandum to all warranted contracting officers, Federal
            Acquisition Certification-Contracting (F AC-C) and Federal Acquisition Certification­
            Contracting Officer Representative (F AC-COR) personnel advising them that one of
            the basic responsibilities is to maintain adequate contract documentation.

       b) 	 A/OPE will issue a written report to the General Services Officer (GSO) and the
            Management Officer (MO) after all overseas Staff Assistance Visits (SAVs) advising
            the post of the conditi~n of contract files reviewed during the visit.

       c) 	 A/OPE will issue a written report to the Bureau and/or Office Head providing the
            results of reviews.

       d) A/OPE will require a report from bureau and post file review audits conducted by
          HCAs and bureau COR oversight organizations.

       e) 	 A/OPE will pursue the addition of a requirement that Post and Bureau Annual
            Management Control Assurance Statements include verification of internal controls
            over contract files.

To ensure that individuals are held accountable, A/OPE would appreciate from OIG a list of
those responsible for the contract file deficiencies referenced in the Management Alert. On future
audits it would be beneficial if OIG can provide A/OPE with any information on accountable
individuals whether as an element of the report or through separate communication.



   (3) OIG recommends that the Under Secretary for Management ensure that
       contracting officers and their supporting personnel, and A/OPE specialists
       conducting oversight visits, have resources sufficient to maintain adequate contract
       files in accordance with relevant regulations and policies.




                                              -3­
    RESPONSE: Concur with the need for adequate resources to fulfill the internal control
    responsibilities of the Department.

    A/LM/AQM Contracting Officers are funded through the Working Capital Fund and review
    ofstaffing needs is part of the process of maintaining this fund. The need for additional
    A/OPE travel and personnel oversight resources will be separately examined in light of other
    Department priorities.

    Additionally, resourcing of contracting officers' representatives (CORs) is an individual
    bureau responsibility. A Bureau Contracting Officers work closely with all bureau program
    offices to identify and determine the particular technical expertise that is required, the
    preferred level of COR training and certification, as well as the appropriate number of CORs
    assigned to each contract. My office will advocate for bureau, office and post increased
    resources where reviews identify file deficiencies.



cc: 	   M - Patrick F. Kennedy
        JG - Steve Linick




                                              -4­
